NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL


             OIG REPORT TO OMB
          ON NCUA COMPLIANCE WITH
          GOVERNMENT INFORMATION
            SECURITY REFORM ACT
                    2002

      Report #OIG-02-12        September 16, 2002




                Acting Inspector General:




                   Auditor in Charge:




                          h
                 NATIONAL CREDIT UNION ADMINISTRATION
                     OFFICE OF INSPECTOR GENERAL
              OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
             GOVERNMENT INFORMATION SECURITY REFORM ACT
                                  2002

                              EXECUTIVE SUMMARY


The Government Information Security Reform Act (GISRA), Public Law 106-398,
requires Inspectors General (IG) to perform independent evaluations to:

   •   Assess compliance with GISRA and agency security policies and procedures;
       and
   •   Test effectiveness of information security control techniques for a subset of the
       agency’s information systems.

The NCUA OIG performed three reviews during the reporting cycle that tested
effectiveness of information security and internal controls:

   •   On March 7, 2002, the OIG issued a report containing an Evaluation of Project
       Risks Associated with an Upgrade to Comprehensive Human Resources
       Integrated System (CHRIS). The purpose of our review was to determine
       whether NCUA had mitigated the project risks of a major HR system upgrade by
       performing appropriate analysis, planning, and monitoring. The focus of this
       review was intended to provide reasonable assurance regarding the design and
       effectiveness of controls over systems and procedures. Our review identified
       several system migration weaknesses. We reported that these weaknesses
       could lead to overall increased project risk, NCUA needs/requirements not being
       met, the planned implementation timeframe not being met, increased security
       and system access risks, and expanding costs. According to NCUA, the
       conversion was successfully completed in Spring 2002.

   •   On March 31, 2002, the OIG issued the Financial Statement Audit Report for the
       year ended December 31, 2001. The purpose of this audit was to express an
       opinion on whether the financial statements were fairly presented. In addition,
       the internal control structure was reviewed and an evaluation of compliance with
       laws and regulations was performed as part of the audit. The result of this audit
       was an unqualified opinion, stating that the financial statements were presented
       fairly. Although there were no material weaknesses identified during the review
       of the internal control structures pertinent to financial reporting, eighteen
       recommendations were made relating to weaknesses in the area of information
       security.

   •   On September 16, 2002, the OIG issued a report containing an evaluation of
       NCUA’s compliance with the Government Information Security Reform Act.
       Although NCUA has not achieved full compliance with GISRA, the agency has
       made significant progress toward that goal. NCUA has established the basis for
       an improved information security program, which if properly implemented and


                                          1
                     NATIONAL CREDIT UNION ADMINISTRATION
                          OFFICE OF INSPECTOR GENERAL
                 OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
              GOVERNMENT INFORMATION SECURITY REFORM ACT
                                          2002
       maintained over time should meet the goals set forth by GISRA. NCUA has
       appointed a Security Officer to oversee the security program. During the past
       year, the Security Officer has coordinated the completion of risk assessments
       and security plans for most of NCUA’s systems. In addition, NCUA has made
       acceptable progress in correcting information security issues previously identified
       in other reviews.

The overall objective of this review was to perform an independent evaluation as
required by GISRA in order to assess compliance with GISRA and agency security
policies and procedures. To fulfill the objectives of the review, we performed a detailed
review of NCUA’s risk assessments, security plans, and other relevant documents
where available. In addition, we interviewed each of the designated systems business
owners in order to execute a compliance gap analysis for each of the major computer
systems. The procedures also included reviewing available documentation to
determine:

   •   The level of compliance for each of the critical elements under review;
   •   Items requiring a corrective action pla n; and
   •   Accepted risks associated with each system.

The NCUA Office of Inspector General (OIG) determined that NCUA is actively working
towards compliance with GISRA. The following represents the agency’s status toward
compliance with key GISRA provisions as of August 2002:

   •   NCUA established policies and procedures for an agency-wide security program.
       In February 2002, the Executive Director issued an instruction to all staff outlining
       the security responsibilities of the CIO, Offices of Primary Interest, and
       Information Security Officer. NCUA also prepared a document with Information
       Security Procedures. The goal of this document is to establish the procedures
       used by NCUA to create and maintain an agency-wide security plan. This plan
       will provide the basis for a high-level oversight of all security efforts, ensure that
       all security measures are well coordinated, and will provide an operating
       framework for all more specific security plans.

   •   NCUA is in the process of updating its Continuity of Operations Plan. In addition,
       the disaster recovery plan was tested successfully. Although the infrastructure
       disaster recovery plan covers the recoverability of the systems, business owners
       have not documented a business continuity plan for processes supported by their
       systems. Most of the system owners verbally communicated to us the steps they
       would take should their system become unavailable; however, these processes
       are not documented for someone other than the business owner to carry out.




                                           2
                  NATIONAL CREDIT UNION ADMINISTRATION
                      OFFICE OF INSPECTOR GENERAL
               OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
              GOVERNMENT INFORMATION SECURITY REFORM ACT
                                   2002

   •   The CIO and Information Security Officer had oversight over the agency-wide
       security program and ensured effective implementation by working with program
       officials. The CIO and Security Officer assisted agency program officials with
       their risk assessments and security plans.

   •   The CIO contracted with an independent public accounting firm to perform a
       penetration test. The results of the penetration test did not reveal any material
       security weaknesses.

   •   NCUA program officials performed risk assessments on eighteen systems, plus
       an additional system’s risk assessment was performed subsequent to our review.

   •   NCUA program officials developed eighteen security plans for each system they
       under their control, and one additional system’s security plan was developed
       subsequent to our review.

   •   NCUA program officials need to perform periodic management testing of controls
       for their systems as required by GISRA.

   •   NCUA needs to perform due diligence reviews to ensure adequate security steps
       have been taken for systems and services provided by other government
       agencies and contractors.

   •   For the reporting cycle, NCUA provided security training to personnel with
       significant security responsibilities. Security awareness training was provided to
       most employees during a bi-annual regional conference sponsored by NCUA. In
       addition, new examiners are provided with basic computer training, which
       includes security awareness. NCUA plans to use their video taped regional
       conference presentation for contractors and new non-examiner personnel.

   •   A formal incident response capability has been documented, but still needs to be
       implemented.

   •   NCUA plans to develop and implement an intrusion detection system by the end
       of 2002.

The OIG made specific recommendations to management that address concerns
identified during this review.




                                           3
                 NATIONAL CREDIT UNION ADMINISTRATION
                     OFFICE OF INSPECTOR GENERAL
              OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
             GOVERNMENT INFORMATION SECURITY REFORM ACT
                                  2002

 OMB QUESTIONS with
 OIG RESPONSE

The Office of Management and Budget (OMB) has requested OIGs to submit the results
of their independent evaluation by responding specifically to questions in OMB
Memorandum M-02-09. The following presents our evaluation of the National Credit
Union Administration’s (NCUA) compliance with GISRA. While the OCIO shared its
preliminary draft report to OMB with the OIG, there was insufficient time to verify the
content of the agency’s submission to OMB.

A. General Overview

  1. Identify the agency’s total security funding as found in the agency’s FY02 budget request,
     FY02 budget enacted, and the President’s FY03 budget.

             No OIG evaluation required.

  2. Identify and describe as necessary the total number of programs and systems in the
     agency, the total number of systems and programs reviewed by the program officials,
     CIOs, or IGs in both last year’s report (FY01) and this year’s report (FY02) according to
     the format provided below. Agencies should specify whether they used the NIST self-
     assessment guide or an agency developed methodology. If the latter was used, confirm
     that all elements of the NIST guide were addressed.

             During 2001, NCUA did not identify programs for this purpose. NCUA
             identified seven mission critical systems that did not include other critical
             systems that were maintained by other agencies such as the agency’s
             personnel processing system, payroll system, time and attendance
             system, and disbursement system. NCUA’s program officials and CIO did
             not perform any program reviews during 2001. The OIG performed two
             independent evaluations that included information security and internal
             controls during the 2001 reporting period: SAP Security Review and 2000
             Financial Statement Audits. Both independent evaluations included
             NCUA’s core financial system, which is one of the agency’s mission
             critical systems.

             During 2002, NCUA determined there is one program supported by
             nineteen systems, which include the systems that were left out of the 2001
             GISRA reporting cycle. Program officials and the CIO prepared eighteen
             security plans and performed eighteen risk assessments using NIST SP
             800-26. The CIO contracted with an independent public accounting firm to
             perform a penetration test, which disclosed no material weaknesses.
             However, program officials have not independently tested or validated
             security controls over their respective systems.


                                            4
                  NATIONAL CREDIT UNION ADMINISTRATION
                      OFFICE OF INSPECTOR GENERAL
               OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
              GOVERNMENT INFORMATION SECURITY REFORM ACT
                                   2002

              During the 2002 reporting period, the OIG performed three independent
              evaluations that evaluated information security and internal controls: 2001
              Financial Statement Audits, Evaluation of Project Risks Associated with
              Upgrade to Comprehensive Human Resources Integrated System, and
              Independent Evaluation of NCUA’s Information Security Program.

                                                                      FY01     FY02
      a.   Total number of agency programs.                            0        1
      b.   Total number of agency systems.                             7        19
      c.   Total number of programs reviewed.                          0        0
      d.   Total number of systems reviewed.                           1        4

  3. Identify all material weakness in policies, procedures, or practices as identified and
     required to be reported under existing law. (Section 3534(c)(1)-(2) of the Security Act.)
     Identify the number of reported material weaknesses for FY 01 and FY 02, and the
     number of repeat weaknesses in FY02.

                                                                      FY01     FY02
       a. Number of material weaknesses reported.                      0        0
       b. Number of material weaknesses repeated in FY02.              0        0


B. Responsibilities of Agency Head

  1. Identify and describe any specific steps taken by the agency head to clearly and
     unambiguously set forth the Security Act’s responsibilities and authorities for the agency
     CIO and program officials. Specifically how are such steps implemented and enforced?
     Can a major operating component of the agency make an IT investment decision without
     review by and concurrence of the agency CIO?

              In February 2002, the Executive Director issued an instruction to all staff
              outlining the security responsibilities of the CIO, Offices of Primary
              Interest, and Information Security Officer. NCUA also drafted a document
              with Information Security Procedures. The goal of this document is to
              establish the procedures used by NCUA to create and maintain an
              agency-wide security plan. This plan will provide the basis for a high-level
              oversight of all security efforts, ensure that all security measures are well
              coordinated, and will provide an operating framework for all more specific
              security plans.




                                             5
                 NATIONAL CREDIT UNION ADMINISTRATION
                       OFFICE OF INSPECTOR GENERAL
             OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
           GOVERNMENT INFORMATION SECURITY REFORM ACT
                                       2002
           The CIO and Deputy Executive Director (DED) met periodically throughout
           the year to discuss progress with GISRA compliance.

           Although business managers have discretionary budget authority over
           their respective operations, the final integration of systems at NCUA is
           monitored and approved by the CIO. In addition, major acquisitions are
           evaluated and monitored by the Information Technology Oversight
           Committee for the strategic integration into NCUA’s enterprise
           architecture.

2. How does the head of the agency ensure that the agency’s information security plan is
   practiced throughout the life cycle of each agency system? (Sections 3533(a)(1)(A)-(B),
   (b)(3)(C)-(D), (b)(6) and 3534(a)(C) of the Security Act.) During the reporting period, did
   the agency head take any specific and direct actions to oversee the performance of 1)
   agency program officials and 2) the CIO to verify that such officials are ensuring that
   security plans are up-to-date and practiced throughout the lifecycle of each system?

           In February 2002, the Executive Director issued an instruction to all staff
           outlining the security responsibilities of the CIO, Offices of Primary
           Interest, and Information Security Officer. The agency head delegated
           the oversight of the agency’s security program to the DED who was
           periodically briefed by the CIO on the progress of the agency’s information
           security program and the implementation of security plans throughout the
           lifecycle of each system.

           In addition, results from independent reviews and audits are
           communicated to the Office of the Executive Director (OED). The DED is
           the agency’s audit follow-up official whose responsibility is to ensure that
           appropriate corrective action is taken on findings.

3. How has the agency integrated its information and information technology security
   program with its critical infrastructure protection responsibilities, and other security
   programs (e.g., continuity of operations, and physical and operational security)?
   (Sections 3534 (a)(1)(B) and (b)(1) of the Security Act.) Does the agency have separate
   staffs devoted to other security programs, are such programs under the authority of
   different agency officials, if so what specific efforts have been taken by the agency head
   or other officials to eliminate unnecessary duplication of overhead costs and ensure that
   policies and procedures are consistent and complimentary across the various programs
   and disciplines?




                                          6
                NATIONAL CREDIT UNION ADMINISTRATION
                      OFFICE OF INSPECTOR GENERAL
            OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
          GOVERNMENT INFORMATION SECURITY REFORM ACT
                                      2002
          Although NCUA does not have any critical infrastructure protection
          responsibility, NCUA integrated most of its security responsibilities in the
          agency-wide information technology security program. However, the
          physical security program requires integration into the overall security
          program at NCUA.

          Since NCUA is a small agency, there is only one individual with
          responsibility for the agency information security program that reports
          exclusively to the CIO. There is no additional staff devoted solely to the
          security program.

4. Has the agency undergone a Project Matrix review? If so, describe the steps the agency
   has taken as a result of the review. If no, describe how the agency identifies its critical
   operations and assets, their interdependencies and interrelationships, and how they
   secure those operations and assets. (Sections 3535(a)(1)(A)-(B), (b)(3)(C)-(D), (b)(6)
   and 3534(a)(C) of the Security Act.)

          NCUA was not required to undergo a Project Matrix review. However,
          NCUA management identified systems as those that are supported by
          OCIO and/or used to support agency operations. Of these nineteen
          systems, NCUA determined seven have high criticality for supporting
          agency operations. The CIO and OED plan to perform an annual review
          of systems and note any additions, disposals, or changes in criticality.

5. How does the agency head ensure that the agency, including all components, has
   documented procedures for reporting security incidents and sharing information
   regarding common vulnerabilities? Identify and describe the procedures for external
   reporting to law enforcement authorities and to the General Services Administration’s
   Federal Computer Incident Response Center (FedCIRC). Identify actual performance
   according to the measures and the number of incidents reported in the format provided
   below. (Section 3534(b)(2)(F)(i)-(iii) of the Security Act.)

          A formal incident response capability has been documented, but is not yet
          implemented. NCUA needs to finalize the incident response policies and
          procedures and implement them. Because NCUA does not have an
          intrusion detection system, it is difficult for the agency to determine if there
          were any incidents or attempted breaches in security. NCUA has
          budgeted for and plans to deploy an intrusion detection system by the end
          of 2002.

    a. Total number of agency components                              1
       including bureaus, field activities.
    b. Number of agency components with                               1
       incident handling and response
       capability.


                                           7
                   NATIONAL CREDIT UNION ADMINISTRATION
                         OFFICE OF INSPECTOR GENERAL
               OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
             GOVERNMENT INFORMATION SECURITY REFORM ACT
                                         2002
       c. Number of agency components that                     1
          report to FedCIRC.
       d. Does the agency and its major         NCUA did not report any
          components share incident             incidents to FedCIRC
          information with FedCIRC in a timely  during this reporting cycle.
          manner consistent with FedCIRC and
          OMB guidance?
       e. What is the required average time to  NCUA did not report any
          report to the agency and FedCIRC      incidents to FedCIRC
          following an incident?                during this reporting cycle.
       f. How does the agency, including the    Currently, the Information
          programs within major components,     Security Officer has an
          confirm that patches have been tested informal process for
          and installed in a timely manner?     overseeing the patch
                                                process. NCUA is in the
                                                process of implementing
                                                formal procedures that will
                                                identify and track the testing
                                                and installation of patches.

                                                                   FY01       FY02
       g. By agency and individual component, number of             0          0
          incidents (e.g., successful and unsuccessful
          network penetrations, root or user account
          compromises, denial of service attacks, website
          defacing attacks, malicious code and virus,
          probes and scans, password access) reported
          by each component
       h. By agency and individual component, number of              0          0
          incidents reported externally to FedCIRC or law
          enforcement.

C. Responsibilities of Agency Program Officials

   1. Have agency program officials: 1) assessed the risk to operations and assets under their
      control; 2) determined the level of security appropriate to protect such operations and
      assets; 3) maintained an up-to-date security plan (that is practiced throughout the life
      cycle) for each system supporting the operations and assets under their control; and 4)
      tested and evaluated security controls and techniques? (Section 3534(a)(2) of the
      Security Act.)

             Most program officials have performed risk assessments using NIST 800-
             26 and developed security plans for each of the systems under their
             control. Of the nineteen systems identified at NCUA, eighteen of them


                                            8
                           NATIONAL CREDIT UNION ADMINISTRATION
                                  OFFICE OF INSPECTOR GENERAL
                        OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
                      GOVERNMENT INFORMATION SECURITY REFORM ACT
                                                  2002
                      had security plans and risk assessments at the time of our review.
                      However, program officials have not tested and evaluated controls o f their
                      respective systems.

                   NATIONAL CREDIT UNION ADMINISTRATION                    TOTAL
                                                                         NUMBER OF
                                                                          SYSTEMS
              TOTAL NUMBER OF AGENCY SYSTEMS                                   19

      By each major agency component and aggregated into an agency total, from last year’s
      report (FY01) and this reporting period (FY0 2) identify actual performance according to the
      measures and in the format provided below for the number and percentage of total systems.

                          NATIONAL CREDIT UNION ADMINISTRATION
                                                                 FY01   FY01   FY02    FY02
                                                                  #       %     #       %
              a.    Systems that have been assessed for           0      0%     18     95%
                    risk.
              b.    Systems that have been assigned a             0     0%      4      21%
                    level of risk after a risk assessment has
                    been conducted (e.g., high, medium, or
                    basic).
              c.    Systems that have an up -to-date              0     0%      18     95%
                    security plan.
              d.    Systems that have been authorized for         0     0%      0       0%
                    processing following certification and
                    accreditation.
              e.    Systems that are operating without            7     100%    1       5%
                    written authorization (including the
                    absence of certification and
                    accreditation).
              f.    Systems that have the costs of their          0     0%      01      0%
                    security controls integrated into the life
                    cycle of the system.
              g.    Systems for which security controls           1     14%     4      21%
                    have been tested and evaluated in the
                    last year.
              h.    Systems that have a contingency plan.         1     14%     2      11%
              i.    Systems for which contingency plans           1     14%     1      5%
                    that have been tested in past year.


1
    See D3.


                                                    9
                 NATIONAL CREDIT UNION ADMINISTRATION
                     OFFICE OF INSPECTOR GENERAL
              OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
             GOVERNMENT INFORMATION SECURITY REFORM ACT
                                  2002
   2. For operations and assets under their control, have agency program officials used
      appropriate methods (e.g., audits or inspections) to ensure that contractor provided
      services (e.g., network or website operations) or services provided by another agency
      for their program and systems are adequately secure and meet the requirements of the
      Security Act, OMB policy and NIST guidance, national security policy, and agency
      policy? Identify actual performance according to the measures and in the format
      provided below. (Sections 3532(b)(2), 3533(b)(2), 3534(a)(1)(B) and (b)(1) of the
      Security Act.)

             Other agencies or contractors maintain five systems used by NCUA.
             Program officials relied on external agencies and contractors to meet all
             applicable federal security requirements and assumed that their systems
             are secure. Program officials have not requested any evidence to support
             these assumptions, and therefore have not applied an appropriate level of
             due diligence to ensure these systems and services are adequately
             secure.

                  NATIONAL CREDIT UNION ADMINISTRATION
                                                                  FY01          FY02
       a. Number of contractor operations or facilities.           5             5
       b. Number of contractor operations or facilities reviewed.  0             0


D. Responsibilities of Agency Chief Information Officers

   1. Has the agency CIO: 1) adequately maintained an agency-wide security program; 2)
      ensured the effective implementation of the program and evaluated the performance of
      major agency components; and 3) ensured the training of agency employees with
      significant security responsibilities? Identify actual performance according to the
      measures and in the format provided below. (Section 3534(a)(3)-(5)) and (Section
      3534(a)(3)(D), (a)(4), (b)(2)(C)(i)-(ii) of the Security Act.)

             The CIO developed and had oversight over the agency- wide security
             program and ensured effective implementation by working with program
             officials. The CIO and Security Officer assisted agency program officials
             with their risk assessments and security plans.

             During the course of the year, the Security Officer has attended security
             seminars that have enhanced the ability of the Security Officer to
             implement the agency wide security program. Other OCIO employees
             who are responsible for implementing technical security controls have
             attended various technical security seminars throughout the year. In
             August 2002, the Security Officer provided security awareness training to
             most employees at a bi-annual NCUA sponsored conference. However,
             new non-examiner employees and contractors with access to NCUA’s


                                          10
             NATIONAL CREDIT UNION ADMINISTRATION
                   OFFICE OF INSPECTOR GENERAL
         OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
       GOVERNMENT INFORMATION SECURITY REFORM ACT
                                     2002
       information technology resources did not receive any security training.
       The Security Officer’s training at the conference was video taped and will
       be used for training new users of NCUA’s information technology
       resources in the future.

                                             FY01                    FY02
a.   Other than GAO or IG audits              0                       1
     and reviews, how many
     agency components and field
     activities received security
     reviews?
b.   What percentage of                      0%                       5%
     components and field
     activities have had such
     reviews?
c.   Number of agency employees             1477                     1451
     including contractors.
d.   Number and percentage of                 7                      1094
     agency employees including              0%                      75%
     contractors that received
     security training.
e.   Number of employees with                 7                        16
     significant security
     responsibilities.
f.   Number of employees with                 7                       16
     significant security                   100%                     100%
     responsibilities that received
     specialized training.
g.   Briefly describe what types of Technical seminars,      Technical seminars,
     security training were         conferences, and in-     conferences, and in-
     available.                     house training           house training
h.   Total costs for providing             $2,700                   $1,500
     training described in (g).

i.   Do agency POA&Ms account for all known         No, results from the
     agency security weaknesses including of all    CHRIS Audit, 2001
     components and field activities? If no, why    Financial Audit, and
     not?                                           Penetration Test were
                                                    not included in the
                                                    POA&M.
j.   Has the CIO appointed a senior agency                    Yes
     information security official?




                                  11
               NATIONAL CREDIT UNION ADMINISTRATION
                   OFFICE OF INSPECTOR GENERAL
            OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
           GOVERNMENT INFORMATION SECURITY REFORM ACT
                                2002
2. For operations and assets under their control (e.g., network operations), has the agency
   CIO used appropriate methods (e.g., audits or inspections) to ensure that contractor
   provided services (e.g., network or website operations) or services provided by another
   agency are adequately secure and meet the requirements of the Security Act, OMB
   policy and NIST guidance, national security policy, and agency policy? Identify actual
   performance according to the measures and in the format provided below. (Sections
   3532(b)(2), 3533(b)(2), 3534(a)(1)(B) and (b)(1) of the Security Act.)

           NCUA utilizes agency employees to informally monitor contractors that
           supplement NCUA’s information technology staff. In addition, a contractor
           maintains the backup storage facility. Program officials have assumed
           that the backup storage facility contractor met federal regulatory
           requirements and have not applied an appropriate level of due diligence to
           ensure that these services are adequately secure.


                                                                           FY01    FY02
    a. Number of contractor operations or facilities.                        1       1
    b. Number of contractor operations or facilities reviewed.               0       0

3. Has the agency CIO fully integrated security into the agency’s capital planning and
   investment control process? Were security requirements and costs reported on every
   FY03 capital asset plan (as well as in the exhibit 53) submitted by the agency to OMB?
   If no, why not? Identify actual performance according to the measures and in the format
   provided below. (Sections 3533(a)(1)(A)-(B), (b)(3)(C)-(D), (b)(6) and 3534(a)(C) of the
   Security Act.)

           Although NCUA is not required to complete a capital asset plan with its
           budget submission to OMB, NCUA intends to incorporate security with its
           strategic plan and enterprise architecture. Since a significant portion of
           NCUA’s information security is handled by the infrastructure, NCUA has
           not taken any steps to integrate security funding at the system level.

                                                                        FY03        FY04
                                                                       Budget      Budget
                                                                      Materials   Materials
    a.   Number of capital asset plans and justifications submitted      N/A         N/A
         to OMB?
    b.   Number of capital asset plans and justifications submitted     N/A         N/A
         to OMB without requisite security information and costs?
    c.   Were security costs reported for all agency systems on         N/A         N/A
         the agency’s exhibit 53?
    d.   Have all discrepancies been corrected?                         N/A         N/A
    e.   How many have the CIO/other appropriate official               N/A         N/A
         independently validated prior to submittal to OMB?




                                             12
                 NATIONAL CREDIT UNION ADMINISTRATION
                     OFFICE OF INSPECTOR GENERAL
              OIG REPORT TO OMB ON NCUA COMPLIANCE WITH
             GOVERNMENT INFORMATION SECURITY REFORM ACT
                                  2002

 ATTACHMENTS

Exhibit 1:
Independent Evaluation of NCUA’s Information Security Program Required by the
Government Information Security Reform Act
       Executive Summary,
       Objectives, Scope, and Methodology,
       Consolidated Summary Report

Exhibit 2:
Financial Statement Audit 2001
       Executive Summary and Observations and Recommendations

Exhibit 3:
Evaluation of Project Risks Associated with Upgrade to Comprehensive Human
Resources Integrated System
       Executive Summary


(Attachments transmitted separately.)




                                        13
